   November 17, 2004




Logistics
Defense Logistics Agency Processing of
Special Program Requirements
(D-2005-020)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
BSM                   Business Systems Modernization
DDE                   Demand Data Exchange
DLA                   Defense Logistics Agency
DoDAAC                DoD Activity Address Code
DORRA                 Defense Logistics Agency Office of Research and Resource
                         Analysis
DSC                   Defense Supply Center
DSCP                  Defense Supply Center Philadelphia
ICP                   Inventory Control Point
SAMMS                 Standard Automated Materiel Management System
SPR                   Special Program Requirement
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                       November 17,2004
MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT: Report on Defense Logistics Agency Processing of Special Program
         Requirements (Report No. D-2005-020)

      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.
       DoD Directive 7650.3 requires that all unresolved issues be resolved promptly.
We request that the Defense Logistics Agency provide additional comments on the
potential monetary benefits. Management comments should be provided by
January 17,2005.
        If possible, please provide management comments in electronic format (Adobe
Acrobat file only). Send electronic transmission to the e-mail addresses cited in the last
paragraph of thi~memorandum.Copies of the management comments must contain the
actual signature of the authorizing official. We cannot accept the 1 Signed 1symbol in
place of the actual signature. If you arrange to send classified comments electronically,
they must be sent over the classified SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the s M . Questions should be directed
to Mr. Terrance P. Wing at (215) 737-3883 @SN 444-3883) (twing@dodig.osd.mil) or
Mr. Richard Kotecki at (215) 737-3886 @SN 444-3886) (rkotecki@dodig.osd.mil). See
Appendix B for the report distribution. The team members are listed inside the back
cover.
                                By direction of the Deputy Inspector General for Auditing:



                                                                /
                                            Shelton ~ . & o u n ~
                                       Assistant Inmector General
                                   for Readiness and Logistics Support
         Office of the Inspector General of the Department of Defense
Report No. D-2005-020                                               November 17, 2004
  (Project No. D2003LD-0180)

                    Defense Logistics Agency Processing of
                       Special Program Requirements

                               Executive Summary

Who Should Read This Report and Why? Logistics personnel with the responsibility
to manage nonrecurring materiel requirements for DoD should read this report. This
report evaluates Defense Logistics Agency (DLA) policies and procedures for processing
and supporting special program requirements.

Background. This is the second report on DLA management of nonrecurring
requirements. The prior report, “Defense Logistics Agency Processing of Other
Nonrecurring Requirements,” November 7, 2003, evaluated DLA policies and procedures
for processing other nonrecurring requirements that were not special program
requirements. Special program requirements represent the primary method DoD
organizations use to meet nonrecurring requirements for materiel supply support. Special
program requirements are electronically generated by customers and pertain to DLA
supply support that will be needed at a specific date in the future. As of
September 30, 2003, there were 964,549 special program requirements, valued at over
$1.7 billion, in the DLA Standard Automated Materiel Management System.

Results. We evaluated DLA initiatives for minimizing inventory to support special
program requirements. Although it has taken actions to minimize its investment in
inventory to support special program requirements, DLA needs to expand its pilot
program to reduce special program requirement procurement quantities to its Defense
supply centers at Columbus, Ohio, and Richmond, Virginia. Expanding the pilot
program to the other DLA supply centers could result in funds put to better use totaling
$95.6 million over 6 years, FYs 2005 through 2010, with a negligible reduction in supply
availability. The full extent of the monetary benefits will be quantifiable after
management takes action to limit special program requirement procurement quantities.
DLA-wide implementation of the pilot program should correct the material weaknesses
identified by this audit. (See the Finding section of the report for the detailed
recommendation.)

We reviewed the management control program as it related to the DLA oversight and
control of special program requirements. Management controls were insufficient for
minimizing inventory costs in support of special program requirements.

Management Comments and Audit Response. DLA agreed to expand implementation
of its pilot program and acknowledges that the pilot program will help minimize
investment in inventory due to inaccurate forecasts submitted through special program
requirements.
DLA did not agree with the potential monetary benefits, but provided no valid data for
why it did not agree with the amount or the study that we used to compute the amount.
We request that DLA provide additional comments on the final report by
January 17, 2005. See the finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.

Management Actions. On June 15, 2004, DLA officials informed us of their decision to
expand the pilot program to its Defense supply centers at Columbus, Ohio and
Richmond, Virginia. DLA management is also planning to replace the special program
requirements process with the demand data exchange functionality aspect of its business
system modernization program.




                                           ii
Table of Contents

Executive Summary                                             i

Background                                                    1

Objectives                                                    2

Finding
     Defense Logistics Agency Special Program Requirements    3

Appendixes
     A. Scope and Methodology                                 9
         Management Control Program Review                    9
         Prior Coverage                                      10
     B. Report Distribution                                  11

Management Comments
     Defense Logistics Agency                                13
Background
    According to the Deputy Under Secretary of Defense (Logistics and Materiel
    Readiness), a major objective of the DoD logistics mission is to provide
    responsive, cost-effective support to ensure readiness and sustainability for the
    total force across the spectrum of military operations. Accomplishing that
    mission requires DoD wholesale inventory managers to accurately forecast future
    requirements. The forecasts are made on the basis of recurring demand data that
    the inventory management organizations have accumulated and planning data that
    the Services have submitted concerning future operating plans, including special
    programs and projects. The planning data relate to nonrecurring requirements
    that an inventory management organization could not anticipate and provide for if
    forecasts for future inventory requirements were made solely on the basis of
    historical demand data. The primary method that DoD organizations use to meet
    nonrecurring requirements for materiel supply support is special program
    requirements (SPRs).

    DoD Guidance on SPRs. DoD Regulation 4140.1-R, “DoD Supply Chain
    Materiel Management Regulation,” May 23, 2003, prescribes procedures for the
    uniform management of DoD materiel. Regarding nonrecurring requirements, the
    Regulation states that DoD Components may submit SPRs to materiel managers
    to forecast special program or project requirements that are non-repetitive in
    nature and cannot be forecasted on the basis of historical demand data. Further,
    DoD Components must establish internal controls and maintain supporting
    documentation to ensure the appropriateness and accuracy of SPR submissions,
    correlate requisitions with related SPRs, and ensure timely and accurate reporting
    of significant changes. Additionally, DoD Components receiving SPRs must
    establish internal controls to ensure that investment in inventory to support SPRs
    is kept to a minimum.

    DoD Manual 4000.25-2-M, “Military Standard Transaction Reporting and
    Accounting Procedures (MILSTRAP),” September 2001, provides procedures for
    submitting SPR requests to DoD sources of supply. The Manual identifies
    specific circumstances under which SPR requests can and cannot be submitted.
    For example, SPR requests can be submitted for consumable items such as bolts
    or screws needed for repair and rebuild programs that are either nonrecurring or
    are seldom or irregularly programmed; SPR requests cannot be submitted for
    requirements for which there are recurring demands. The Manual also states that
    SPR requests will be submitted to the inventory control points (ICPs) between
    90 days and 5 years prior to the date that the materiel will be needed (the support
    date). The Manual further requires that ICPs measure the size of the requirement
    being forecasted to determine its acceptability in terms of the risk of long supply
    (excess inventory) being generated. That measurement requires consideration of
    the accuracy of past forecasts and the degree of assurance that requisitions will
    follow.




                                         1
    Defense Logistics Agency Guidance on SPRs. Defense Logistics Agency
    (DLA) Manual 4140.2, volume II, “Defense Operations Manual, Defense Supply
    Center, Supply Operating Procedures,” April 2002, provides policy and
    procedures for DLA processing of SPRs. The Manual states that SPRs warrant
    special management emphasis and require high dollar/high volume SPRs to be
    validated. The validation confirms the continuing need for the requirement with
    the customer prior to procurement.

    Volume of SPRs. DLA provided data that showed a significant increase in the
    forecast value and quantity of SPRs over the last 4 years. The forecast value of
    SPRs increased from $352 million as of September 30, 1999, to over $1.7 billion
    as of September 30, 2003. During the same period, the number of SPRs increased
    from 531,356 to 964,549. DLA personnel attributed the increase to the Army’s
    overhauling of equipment in connection with the Iraq war and to DLA promoting
    a greater awareness of the SPR program among the Services. The increase in
    SPRs represents a significant financial risk to DLA because customers are not
    required to requisition materiel procured to support SPRs, and there is no penalty
    to the customers for overestimating requirements. Table 1 shows SPRs generated
    by Service as of September 30, 2003.


                       Table 1. DLA SPRs as of September 30, 2003

                                                                   Value
             Service               Number of SPRs              (in millions)

             Army                      765,969                    $1,031
             Navy                       90,883                       301
             Air Force                  96,219                       419
             Marines                    11,478                         6

              Total                    964,549                    $1,757



Objectives
    Our overall objective was to evaluate the process used by DoD Components for
    processing and supporting SPRs. Specifically, we evaluated DLA initiatives for
    minimizing investment dollars to support SPRs. We also reviewed the
    management control programs as they applied to the audit objective. This is the
    second report on DLA management of nonrecurring requirements. The prior
    report, IG DoD Report No. D-2004-018, “Defense Logistics Agency Processing
    of Other Nonrecurring Requirements,” November 7, 2003, evaluated DLA
    policies and procedures for processing other nonrecurring requirements that were
    not SPRs. See Appendix A for a discussion of the scope and methodology, our
    review of the management control program, and prior audit coverage.




                                        2
                    Defense Logistics Agency Special
                    Program Requirements
                    DLA had taken actions to minimize its investment in inventory to support
                    SPRs. Although DLA had introduced a pilot program to reduce SPR
                    procurement quantities at its Defense Supply Center Philadelphia (DSCP),
                    DLA did not expand that program to its Defense supply centers (DSCs) in
                    Columbus, Ohio, or Richmond, Virginia. DLA officials stated that the
                    program had not been expanded because of concerns from the Services
                    and DLA readiness personnel that the pilot program would adversely
                    affect supply availability. Consequently, DLA incurred unnecessary
                    procurement costs. Using a DLA Office of Research and Resource
                    Analysis (DORRA) study dated April 2004, we found that by expanding
                    the pilot program to the DSCs at Columbus and Richmond, funds put to
                    better use could total $95.6 million over 6 years, FYs 2005 through 2010,
                    with a negligible reduction in supply availability.


DLA Initiatives to Reduce SPR Inventory Investment
           In response to the increased use and dollar value of SPRs over the last 4 years and
           DoD Regulation 4140.1-R requirements, DLA developed two initiatives to
           minimize its investment in inventory to support SPRs.

           Streamlined Validation Process. The first DLA initiative was to develop a
           streamlined validation process. Under prior SPR validation procedures, the DLA
           Standard Automated Materiel Management System (SAMMS) automatically
           generated a listing of SPRs for $2,500 or more whenever an item reorder point1
           was reached. Individuals designated as SPR monitors validated those
           requirements by contacting the submitting organizations by mail or message. On
           the basis of responses received from the submitting organizations, the SPR
           monitors entered confirmation codes or changes in SAMMS and notified the DLA
           item managers of actions taken.

           In May 2002, DLA implemented a streamlined, automated validation process at
           the DSCs. The process begins 90 days before an item’s reorder point with
           SAMMS generating an e-mail validation request to submitting organizations for
           all SPRs exceeding $10,000 in value.2 If no reply is received within 30 days, a
           follow up e-mail is sent. The submitting organization has an additional 30 days to
           respond to the follow up. If no response is received, a final validation request is
           sent. If no response is received within 15 days of the final request, the SPR is
           automatically cancelled by DLA. Under this process, the maximum allowable


1
    The reorder point is the point at which replenishment action for an item must be initiated in order to
    permit continuous supply support.
2
    DLA data show that SPRs exceeding $10,000 in value account for nearly 70 percent of the dollar value of
    outstanding SPRs but only about 3 percent of the volume.



                                                        3
timeframe for validating SPRs is 75 days (15 days before the item’s reorder
point).

Data provided by DLA indicate that the streamlined SPR validation program is
successful in identifying and canceling a significant number of SPRs. From
February 2002 to September 2003, DLA generated 31,806 validation requests,
valued at over $1.6 billion. Those validation requests resulted in 4,948 SPR
cancellations, valued at $274 million (17 percent of the value of SPRs submitted
for validation). Table 2 summarizes the DLA SPR validation results.


                     Table 2. DLA SPR Validation Results
                      (February 2002 to September 2003)

                                                                   Value
   Category                         Number of SPRs             (in millions)

   Cancellations                          2,596                    $ 138
   No Response (Resulting                 2,352                      136
    in SPR Cancellations)
     Total Cancellations                  4,948                      274

   Confirmations                         26,858                    1,338

      Total Validation
       Requests                          31,806                   $1,612



Buy-Back Program. The second DLA initiative was to develop a buy-back
program consisting of two elements. One element tracks the rate at which the
Services requisition items related to SPRs (commonly referred to as the “buy-
back” rate) and provides that data to the Services. A second element applies
adjusted buy-back rates limiting SPR procurements. The buy-back program was
developed in response to the continuing low buy-back rates for the Services.

        Tracking Buy-Back Data and Providing Feedback to the Services.
The DLA buy-back tracking system tracks the rate at which the Services
requisition items related to SPRs and provides that data to the Services to improve
SPR forecasts, thereby minimizing the DLA investment in inventory. The DLA
buy-back tracking system was implemented in FY 2000 and has been through
several refinements. In its current version, the tracking system compares
forecasted SPR quantities to quantities requisitioned in excess of recurring
demand for the prior 12 months. The tracking system performs the comparison
by matching the DoD activity address code (DoDAAC) and the national stock
number of an SPR to a requisition containing the same DoDAAC and national
stock number.




                                     4
                  In FY 2003, the DLA buy-back data became accessible to customers
           through an Internet Web site. The Web site allows customers to access SPR
           tracking system data and configure the data to obtain buy-back rates unique to the
           forecasting activity, DoDAAC, and project code within each Service. Customers
           can also view buy-back data for individual national stock numbers.

                   Use of Adjusted Buy-back Rates Limiting SPR Procurement
           Quantities. The adjusted buy-back rates are determined by buy-back rates and
           support percentages. Support percentages are determined by the rate at which
           DLA supported prior SPRs from on-hand inventory. Without adjusted buy-back
           rates, DLA supported SPR quantities at 100 percent. Using adjusted buy-back
           rates, DLA supports SPR quantities at an adjusted rate, thereby minimizing the
           DLA investment in inventory. According to DLA officials, adjusted buy-back
           rates, which limit SPR procurement quantities, were initially to be tested under a
           pilot program at DSCP and, if successful, expanded to the Columbus and
           Richmond DSCs, greatly minimizing the financial risks associated with
           supporting SPRs.

                   As an example, DSCP applied the use of adjusted buy-back rates to SPRs
           for screws from an Army DoDACC. Without the use of adjusted buy-back rates,
           SAMMS showed nonrecurring requirements for 15,805 screws, which required
           the purchase of 12,005 screws, valued at $64,227. With the use of adjusted buy-
           back rates, SAMMS showed nonrecurring requirements for 5,941 screws, which
           required the purchase of 3,353 screws, valued at $17,933. The result was a
           $46,294 cost avoidance.

                   Testing the use of adjusted buy-back rates that limit SPR procurements
           began at DSCP in May 2002. According to DSCP personnel, 4 months after
           implementing the pilot program, the value of SPR procurements was reduced by
           $3 million. The program continued to reduce SPR procurement costs in FY 2003.
           According to DSCP personnel, the program reduced or cancelled 12,329 of
           100,634 (12 percent) SPR-related procurement actions, resulting in a $26 million
           reduction in procurement costs while still maintaining an overall supply
           availability at 88 percent.3


Additional Action Required to Minimize SPR Investments
           Twenty-six months after the pilot program began at DSCP, DLA had not yet
           expanded the program to its other DSCs. DLA managers stated that the reason
           the program had not been expanded was because the Services and DLA readiness
           personnel expressed concerns that expanding the program could adversely affect
           supply availability. However, a study completed in April 2004 by DORRA
           concluded that the DLA-wide use of adjusted buy-back rates would have resulted
           in reduced SPR procurement costs of about $22.4 million over a 15-month period
           ending December 2003, with a negligible reduction in supply availability from
           87.96 percent to 87.77 percent.

3
    The DoD standard is to fill customer requisitions at an aggregate supply availability rate of 85 percent by
    weapon system.



                                                        5
    The April 2004 DORRA study evaluated the impact of implementing the DLA-
    wide use of adjusted buy-back rates limiting SPR procurement quantities on
    procurement costs and supply availability. The study used inventory models to
    measure the impact of supporting SPRs at the current DLA support rate of
    100 percent and at an adjusted buy-back rate. The results were based on an
    analysis of 216,377 SPRs, valued at $491 million, for the 15-month period ending
    December 2003. The following table shows the results of the study.


                          Table 3. Results of DORRA Study

                          100 Percent SPR       Adjusted SPR
    Impact Category           Support             Support              Difference

    Supply                    87.96%               87.77%                -0.19%
    Availability

    Procurement Costs
    (Millions)                $1,433.6             $1,411.2              -$22.4



    Using the cost data from the DORRA study, we calculated that DLA could avoid
    costs of about $15.9 million annually by expanding the use of adjusted buy-back
    rates to the Columbus and Richmond DSCs. To calculate the $15.9 million, we
    determined that the average annual cost avoidance identified by the DORRA
    study was $17.9 million ($22.4 million divided by the 15 month study time frame
    multiplied by 12 months). We reduced the $17.9 million by $2 million because
    DSCP, which was already applying adjusted buy-back rates, processes
    11.1 percent of the total value of SPRs. Projecting the annual cost avoidance over
    6 years, FYs 2005 through 2010, yields funds put to better use totaling
    $95.6 million. The full extent of the monetary benefits will be quantifiable after
    management takes action to limit SPR procurements.

    In December 2003, we informed DLA headquarters management that on the basis
    of our preliminary audit work, DLA should expand the use of adjusted buy-back
    rates limiting SPR procurements to the Columbus and Richmond DSCs.


DLA Headquarters Actions
    On June 15, 2004, DLA headquarters management informed us of its decision to
    implement adjusted buy-back rates limiting SPR purchases agency wide. DLA
    considered DoD guidance, the DORRA study, and our preliminary audit findings
    in its decision. Full program implementation at the Columbus and Richmond
    DSCs is tentatively scheduled for December 2004.

    DLA is also planning to replace the SPR process with the demand data exchange
    (DDE) functionality aspect of DLA’s business systems modernization (BSM)


                                         6
    program. The objective of DDE is to develop accurate requirements forecasts that
    will be used in the customer order and procurement processes. According to
    DLA personnel, DDE will achieve that objective by incorporating the use of
    historical demand data in procurement planning similar to the use of adjusted
    buy-back rates in planning SPR procurements.

    According to DLA personnel, the DDE process will begin with customers
    electronically forwarding DLA their total requirements (recurring and
    nonrecurring) through the BSM system. Using a commercial software package,
    BSM will compute differences between total requirements and statistical forecasts
    compiled from the historic demand data. The differences will be compared to
    preset parameters that have not yet been determined. Differences within
    parameters will be processed as additions or deletions to procurement plans.
    Differences exceeding parameters will be resolved through collaborative efforts
    between Service customers and DLA demand planners who will reach a
    consensus and adjust procurement plans accordingly.

    According to DLA headquarters personnel, as of February 2004, DDE was in the
    “design/build state.” Supporting documentation was not available addressing
    DLA progress in implementing DDE, in coordinating requirements and
    establishing preset parameters with the Services, or on establishing internal
    controls that would ensure compliance with DoD requirements. Until the DDE
    functionality aspect of the BSM program is implemented, DLA management
    informed us that they will continue with the SPR program initiatives, including
    the use of adjusted buy-back rates. We plan to evaluate DLA progress toward
    implementing DDE in a future audit.


Recommendation and Management Comment
    We recommend that the Director, Defense Logistics Agency, prepare
    quarterly statistic reports quantifying the cost effectiveness of the special
    program requirement initiative to reduce or cancel procurement actions by
    the use of adjusted buy-back rates, segregated by Defense supply center.

    DLA Comment. DLA partially concurred with the recommendation and stated
    that it agrees to prepare quarterly statistics quantifying the cost effectiveness of
    the program using adjusted buy-back rates, segregated by Defense Supply
    Centers.


Management Comments on the Potential Monetary Benefits
 and Audit Response
    DLA Comments. DLA did not agree with the estimated $96.5 million in
    potential monetary benefits. Although DLA acknowledged that implementing the
    pilot program would help minimize its investment in inventory because of
    inaccurate forecasts submitted through SPRs, it did not agree with the initial study
    indicating savings or that DLA incurred unnecessary procurement costs. In


                                          7
addition, DLA stated that SPRs are accepted to support demand forecasts up to
3 years from initial input and are not part of the requirements stack until the
support date falls within lead times, and therefore, depending on the demand
usage and stockage levels, DLA may or may not initiate procurement.

Audit Response. DLA did not provide any data for why it did not agree with the
$95.6 million in potential monetary benefits. We used the results of the
April 2004 DORRA study to calculate the potential monetary benefits. The
results of the study were based on an inventory model using actual SPRs, valued
at $491 million, for the 15-month period ending December 2003. The study
concluded that DLA use of adjusted buy-back rates over the 15-month time frame
would have reduced SPR procurement quantities by $22.4 million.

We agree with DLA that depending on usage and stockage levels, DLA may or
may not initiate procurement actions to support SPRs. The DORRA study
considered usage and stockage levels in determining the impact of using adjusted
buy-back rates to reduce SPR procurement quantities. DLA personnel who
manage the SPR program and who initially requested the DORRA study stated
that they agreed with the results of the study. Additionally, DLA personnel used
the study to justify DLA-wide implementation of adjusted buy-back rates limiting
SPR procurement quantities to DLA management. We request that DLA
reconsider its position and provide additional comments on the potential monetary
benefits in response to the final report.




                                    8
Appendix A. Scope and Methodology
    We reviewed DoD and DLA guidance regarding policies, responsibilities, and
    procedures for managing forecast requirements dated from September 2001
    through May 2003. We also interviewed officials and obtained documents from
    DoD, the Military Departments, and DLA headquarters regarding SPR
    background information.

    Information on the number and value of SPRs as of September 30, 1999, and
    September 30, 2003, was obtained from DORRA historical files. Information on
    the status of the pilot program using adjusted buy-back rates to limit SPR
    procurement was obtained from DLA headquarters and DSCP. Information on
    the methodology and criteria used to determine the impact of the DLA-wide
    adjusted buy-back rates limiting SPR procurements was reviewed at DORRA.
    Information on the proposed replacement of the SPR process with the DDE
    functionality aspect of the BSM program was reviewed at DLA headquarters and
    also obtained from supply analysts at the BSM office.

    We performed this audit from August 2003 to August 2004 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We used SAMMS queries that were
    developed by DLA to determine the number and value of SPRs that were
    processed for validation from February 2002 to September 2003. We did not
    perform a formal reliability assessment of the computer-processed data; however,
    we determined through discussions with item managers and reviews of other data
    extracted from SAMMS that quantities and acquisition costs of SPRs matched the
    information in the computer-processed data we used. Further, although we used
    SAMMS to determine the number of open SPRs, we did not rely on the computer-
    based data to form our conclusions about the processing and support of SPRs.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Inventory Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DLA management controls over SPRs. We also reviewed
    management’s self-evaluation applicable to those controls.




                                        9
    Adequacy of Management Controls. As defined by DoD Instruction 5010.40,
    we identified a material management control weakness in the oversight and
    control of SPRs. Management controls were not adequate for implementing DoD
    guidance that directs DSCs to measure the size of the requirement being
    forecasted to determine its acceptability in terms of the risk. That determination
    requires consideration of the accuracy of past forecasts and the degree of
    assurance that requisitions will follow, thereby minimizing inventory costs in
    support of SPRs. During our audit, management took action to implement the
    DoD guidance by expanding the pilot program. As a result, costs of $95.6 million
    over 6 years could be avoided. A copy of the report will be provided to the senior
    official responsible for management controls at DLA.

    Adequacy of Management’s Self-Evaluation. DLA did not identify reviewing
    SPR requirements as an assessable unit and, therefore, did not identify or report
    the material management control weakness identified by the audit.


Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) has issued one report discussing other nonrecurring requirements.
    Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.

    IG DoD Report No. D-2004-018, “Defense Logistics Agency Processing of Other
    Nonrecurring Requirements,” November 7, 2003




                                        10
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Defense Business Board
Director Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Unified Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Logistics Agency
  Commander, Defense Supply Center, Columbus
  Commander, Defense Supply Center, Philadelphia
  Commander, Defense Supply Center, Richmond

Non-Defense Federal Organization
Office of Management and Budget




                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        12
Defense Logistics Agency Comments

                                           DEFENSE    I..OGIST1C$ AGENCY
                                                   HEADQUARTERS
                                    8725 JOHN J. KINGMAN ROAD. SUITE 2533
                                       FORTBEI..VOm,     VIRGINIA 22060'6221




  IN_Pl.Y
                                                                                                      Oeft           4 2004
    Ra"ERTO




              MEMORANDUM          FOR    DoD10


              SUBJECT:     l)raJt DoOKi Audit Report on the, "Defense Logistics Agency Processing                                 of
                           Special Program Requirements Prqje<:t No. D2003LD-OI80,    dated
                           August II, 2004.

                      The Defense IA)gistks Agency partially concurred with Recommendations       1 !11
              the subject dran report, and pfOJX)$Cto take corrective measures as stated in TAB ll,

                       We appreciate the opportunity to comment on the dmtt report Questions may be
              refern."<Ilo Ms. Jennifer Johnson, (703) 767-1601, orMr. Melvin Nkholson, Internal
              Review (lInce, 703-761.(j216.




                                                              Ie
                                                              ,    ~
                                                                     J,/:c
                                                                    ~..


                                                                    .AUDIA
                                                                                        I~.
                                                                          C l. L,-~/l.'-,-.
                                                                                              , "
                                                                                              "..:i
                                                                                               ,/

                                                                                         S. KNCrrr
                                                                                                       G j(J'-
                                                                                                          '


                                                                                                       '- ','V
                                                                                                             -
                                                                                                                 -, 4/
                                                                                                                         ." ,,'


                                                                  Deputy Director
                                                                  t.ogistics Operations

              Attachment
              DLA   Comments




                                        ""mRKye!k\IIP~
                                                              0            "rintedonRefi\iCIed"~r




                                                         13
From: DLA-I331

To:     DLA-noI
Subject: MedRLogistia        Agency Proc:euing of Spedal Program Requiremenas
         Projec:t No. D1003LJ>..018O, August     11.1004


FINDINGS: Subject DOD 10 audit has found that DLA is not in compliance with ooD
4000.25-2, Chapter 13, reguJation which requires tbat the Defense Supply Centers
measure customer forecast submitted via SPits to decemtine acceptabilitY in terms of
risks 0£101l8supply being generated. The 10 audit also sites that DLA had introduced a
pilOt program to reduce SPR.procurement quantities at its Defense Supply Center
Philadelphia (DSCP), however, did not expand that program to Defense Supply Center
Columbus not Defense Supply Center Richmond..


RECOMMENDATION:              DOD 10 audit recommends that DLA prepare quarterly
statistics quantifYing the cost effectiveness of the special program requirement initiative
to reduce or cancel procurement actions by the use of adjusted buy-back rates, segregated
by Defense Supply Centers.

DLA COMMENTS: Partially concur. DLA agrees to prepare quarterly statistics
quantifYing the cost effectiveness of the program using adjusted buy back rates through
the AIMs SPR. Support Program.DLA bas expanded the AIMs SPR. Support Program to
the Defense Supply Center Richmond and the Defense Supply Center Columbus and has
issued new policy with implementation expected within 45 days. We do not agree.
however, with the potential monetary benefits indicated witbin the audit Implementation
of this prognun and policy will help DLA minimize investment in inventory due to
inaccurate forecasts submitted via SPits. DLA does not concut with initial study
indicating $95.6 million in savings or that DLA incurred unnecessary procurement costs
SPRs are accepted to support demand forecasts up to 3 years trom initial input and are
not part of the requirements stack until tbe suppon date falls within lead times
Therefure, depending on the demand usage and stockage levels, DLA mayor may not
initiate procurement.

DlSPOSmON:
      (X)  Action is ongoing, ECD; lDec04
     ()    Action is complete.

ACTION OFFICER: Jennifer Johnson, DLA-J332, (703)767.1601
                                      ,f).
REVlEWICOORDINAT

DLA APPROV AL:-"'"
              KA              ER
              Executive Director
              Acquisition, Technical and Supply Directorate




                                    14
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Readiness and Logistics Support prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Shelton R. Young
Terry Wing
Richard Kotecki
Alexander McKay
Robert E. Schonewolf
Eugene V. Barr
Janice Conte
Mandy L. Rush
Brian S. Leinbach
Susann L. Cobb
